 Office of Inspector General


            SEMIANNUAL
             REPORT TO
             CONGRESS


For the Period April 1, 2011 through September 30, 2011




                Report No. 45




   “Democracy demands wisdom and vision in its citizens”
 National Foundation on the Arts and Humanities Act of 1965
THE OFFICE OF INSPECTOR GENERAL

           serves American taxpayers
     by investigating reports of waste, fraud,
  mismanagement, abuse, integrity violations or
   unethical conduct involving Federal funds.



          To report any suspected activity
involving NEH programs, operations, or employees

              Call the OIG Hotline

                1 (877) 786-7598



                Mailing Address

  Office of Inspector General — Hotline
 National Endowment for the Humanities
    1100 Pennsylvania Ave. N.W., Room 419
           Washington, DC 20506


                      Fax

                (202) 606-8329


            Electronic Mail Hotline

                  oig@neh.gov




  Government employees are protected from reprisal

            Caller can remain anonymous

              Information is confidential
                                                               November 9, 2011

Honorable James Leach
Chairman, National Council on the Humanities
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Leach:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Congress
for the second half of the fiscal year 2011. This report is submitted in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Act requires that you submit this report, with
your Report of Final Action, to the appropriate committee or subcommittee of the Congress within
30 days of its receipt. The report provides a summary of the activities of the Office of Inspector
General (OIG) during the six-month period ended September 30, 2011.

During the current reporting period, we completed one internal inspection; one external audit; three
pre-award accounting system surveys; and seven desk reviews of Office of Management and Budget
(OMB) Circular A-133 audit reports, as issued by non-Federal auditors concerning NEH grantees.

In our investigations program, two matters were open as of the beginning of the reporting period.
We received 13 “Hotline” contacts during the period, and one matter remains open as of September
30, 2011.

I greatly appreciate your support and look forward to working with you and all agency staff to fur-
ther our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s vital con-
tributions to the humanities in the United States.

                                                                    Sincerely,




                                                                    Laura Davis
                                                                    Acting Inspector General




     1100 Pennsylvania Ave., N.W., Rm. 419, Washington, D.C. 20506 P 202.606.8350 F 202.606.8329 www.neh.gov/whoweare/OIG.html
                                                         OIG Hotline: (877) 786-7598
                                                   TABLE OF CONTENTS


         LETTER TO THE CHAIRMAN

         EXECUTIVE SUMMARY………………………..………………………………………..                                                                                      1

         THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ...................................                                                    2

         THE OFFICE OF INSPECTOR GENERAL........................................................................                            2

         AUDIT AND REVIEW ACTIVITIES .................................................................................                      3

         INVESTIGATIVE ACTIVITIES …………………………………………………………                                                                                   11

         OTHER ACTIVITIES ..........................................................................................................       13

         TABLE I - REPORTING REQUIREMENTS…………………………………………… ..                                                                              15

         TABLE II - INSPECTOR GENERAL-ISSUED REPORTS................................................                                       16
         WITH QUESTIONED COSTS

         TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................                                             16
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

         GLOSSARY OF AUDIT TERMINOLOGY ........................................................................                            17

         PEER REVIEW RESULTS………………………………………………………………...                                                                                Appendix A




NEH OIG Semiannual Report                                                      i                                                           September 30, 2011
                                          EXECUTIVE SUMMARY

         This has been a productive reporting period for the National Endowment for the Humanities (NEH) Office
         of Inspector General (OIG). I sincerely thank the OIG staff for their dedication and continued commit-
         ment to the mission of this office.

         During the period covered by this report, we issued a report communicating the results of our inspection of
         the NEH grant monitoring function. We made several recommendations that would strengthen current
         monitoring activities of program and grant administrative staff. NEH management has completed imple-
         mentation of most of our recommendations and has initiated action to address other observations noted in
         our report.

         We continued to perform desk reviews of audit reports issued by non-Federal auditors pursuant to OMB
         Circular A-133. These reviews have revealed areas wherein recipients and independent public accountants
         are still lacking subsequent to the issuance of the Report on National Single Audit Sampling Project issued
         by the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and Effi-
         ciency in June 2007 and efforts by the public accounting community to improve audit quality in response
         to the report.

         The OIG engaged the services of Leon Snead & Company (IPA) to conduct the annual audit of the NEH
         financial statements for fiscal year 2011, as required by the Accountability of Tax Dollars Act of 2002.
         The final report will be issued in November 2011.

         Investigative efforts have been active over the past six months. OIG staff have been working closely with
         the U.S. Department of Justice and the National Science Foundation OIG. A criminal case initiated during
         the prior semiannual reporting period was closed during this reporting period upon the agency’s recovery
         of a portion of grant funds fraudulently diverted from the NEH and subsequently seized by the Federal
         Bureau of Investigation. One case remains active as of the end of the reporting period.

         In August 2011, a Settlement Agreement between the NEH and a challenge grant recipient was executed
         by the U.S. Department of Justice in the amount of $125,000, which represents a portion of the amount
         determined by the OIG to be returned to the NEH due to the grantee’s failure to comply with the terms and
         conditions applicable to the NEH challenge grant.

         Administratively, the OIG executed a Memorandum of Understanding with the NEH General Counsel
         which sets forth the procedures to be followed when processing Freedom of Information Act (FOIA)
         requests involving OIG records. The established procedures are designed to preserve the independence of
         the OIG and the confidentiality of OIG records as determined by the Inspector General. The OIG also
         responded to several FOIA requests during the reporting period.




NEH OIG Semiannual Report                                   1                                               September 30, 2011
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Congress enacted
      the National Foundation on the Arts and the Humanities Act of 1965. This Act established the National Endow-
      ment for the Humanities (NEH) as an independent grant-making agency of the Federal government to support
      research, education, and public programs in the humanities. According to the Act, "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics; litera-
      ture; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
      theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic meth-
      ods; and the study and application of the humanities to the human environment with particular attention to reflect-
      ing our diverse heritage, traditions, and history and to the relevance of the humanities to the current conditions of
      national life."

      The NEH is directed by a Chairman, who is appointed by the President and confirmed by the U.S. Senate, for a
      term of four years. Advising the Chairman is the National Council on the Humanities, a board of 26 distinguished
      private citizens who are also appointed by the President and confirmed by the Senate. The National Council
      members serve staggered six-year terms.

      Grants are awarded through four divisions - Research Programs, Education Programs, Preservation and Access,
      and Public Programs -- and three offices - Challenge Grants, Federal/State Partnership, and Digital Humanities.
      The divisions and offices also administer the We the People initiative.

      The NEH’s most recently launched initiative, Bridging Cultures, is designed to bridge both space and time to help
      American citizens gain a deeper understanding of their own varied cultural heritage, as well as the history and
      culture of other nations. This initiative encourages the exploration of ways in which cultures from around the
      globe, as well as the myriad subcultures within America’s borders, have influenced American society.




                             THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General (OIG) was established April 9,1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Offices of
       Inspector General in several departments and in thirty-three agencies, including the NEH. The NEH Inspector
       General (IG) is appointed by the Chairman. The independence of the IG is an important aspect of the Inspector
       General Act. For example, the IG: cannot be prevented from initiating, carrying out, or completing an audit or
       investigation, or from issuing any subpoena; has access to all records of the agency; reports to the National
       Council on the Humanities through the NEH Chairman, and can only be removed by the National Council on the
       Humanities, which must give Congress 30 days notice of the reasons for the removal; and reports directly to
       Congress.

       The Act states that the OIG is responsible for (1) conducting audits and investigations; (2) reviewing legislation;
       (3) recommending policies to promote efficiency and effectiveness; and (4) preventing and detecting fraud,
       waste, and abuse in the operations of the agency. The IG is also responsible for keeping the Chairman and Con-
       gress fully and currently informed of problems and deficiencies in the agency’s programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secretary. The
       OIG has a Memorandum of Understanding with the United States Treasury Inspector General for Tax Admin-
       istration detailing the procedures for the OIG to be provided legal services. Investigations are handled by the IG
       and an auditor.




NEH OIG Semiannual Report                                         2                                                    September 30, 2011
                                       AUDIT AND REVIEW ACTIVITIES

                                            LIST OF REPORTS ISSUED
       The OIG is responsible for external and internal audits. External efforts include on-site grant audits, limited scope desk
       audits, pre-award accounting system surveys, review of OMB Circular A-133 audit reports, and on-site quality control
       reviews of CPA workpapers. Internal efforts consist of audits, inspections, and reviews/evaluations of NEH
       administrative, programmatic, and financial operations. The OIG is also responsible for monitoring the work of the
       independent public accountant (IPA) that conducts the annual audit of the NEH financial statements as required by the
       Accountability of Tax Dollars Act of 2002, and examining the IPA’s audit workpapers and reports to ensure compli-
       ance with applicable requirements.

       Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of 1978, as
       amended, requires us to report on the "Total Dollar Value of Questioned Costs" (including a separate category for the
       “Dollar Value of Unsupported Costs”) and the "Dollar Value of Recommendations that Funds Be Put to Better Use",
       [see Tables II and III].


                                                                                   Report Number                      Date Issued

    INTERNAL AUDITS/REVIEWS/INSPECTIONS

    Inspection of the Grant Monitoring Function                                      OIG-11-01 (I)                     06/09/2011


    EXTERNAL AUDITS/REVIEWS

    Limited Audit — NEH Grant Awards to the Medieval Academy                       OIG-11-03 (EA)                      09/30/2011
     of America


    PRE-AWARD ACCOUNTING SYSTEM SURVEYS

    Cahokia Mounds Museum Society                                                   OIG-11-01 (TS)                     07/19/2011

    Internet Archive                                                                OIG-11-02 (TS)                     09/06/2011

    Endangered Language Alliance, Inc.                                              OIG-11-03 (TS)                     09/30/2011


    DESK REVIEWS

    Desk Review of the Single Audit Report for Year Ended                          OIG-11-11 (DR)                      04/05/2011
     October 31, 2009 — Humanities Texas.

    Desk Review of the Single Audit Report for Year Ended                          OIG-11-12 (DR)                      04/26/2011
     October 31, 2010 — Utah Humanities Council

    Desk Review of the Single Audit Report for Year Ended                          OIG-11-13 (DR)                      04/26/2011
     October 31, 2010 — Florida Humanities Council

    Desk Review of the Single Audit Report for Year Ended                          OIG-11-14 (DR)                      05/25/2011
     October 31, 2010 — North Dakota Humanities Council




NEH OIG Semiannual Report                                              3                                              September 30, 2011
                                      AUDIT AND REVIEW ACTIVITIES

                                              LIST OF REPORTS ISSUED
                                                                       Report Number         Date Issued

       DESK REVIEWS (con’t.)


       Desk Review of the Single Audit Report for Year Ended           OIG-11-15 (DR)        05/31/2011
        October 31, 2009 — Mississippi Humanities Council

       Desk Review of the Single Audit Report for Year Ended           OIG-11-16 (DR)        06/09/2011
        October 31, 2009 — Kentucky Humanities Council

       Desk Review of the Single Audit Report for Year Ended           OIG-11-17 (DR)        08/26/2011
        October 31, 2009 — California Council for the Humanities


       SINGLE AUDIT ACT REVIEWS

       OMB Circular A-133 Reports                                      —- See Page 9    —-




NEH OIG Semiannual Report                                          4                         September 30, 2011
                                  AUDIT AND REVIEW ACTIVITIES

                                     SUMMARY OF REPORTS ISSUED

                                   INTERNAL AUDITS/REVIEWS/INSPECTIONS

                                     Inspection of the Grant Monitoring Function
                                              June 9, 2011; OIG-11-01 (I)

      Each year, the NEH awards approximately 1,000 grants which are administered by four divisions, two
      offices, and the Federal/State Partnership. The monitoring of grant activities is a key management tool to
      help ensure that funds awarded to grantees are being properly spent. We conducted an inspection of the grant
      monitoring function. The objectives of our inspection were to:

               1. Determine if there are agency-wide policies and procedures for monitoring grants, and if so,
                  whether the divisions and offices responsible for the monitoring function are complying with the
                  policies and procedures.

               2. Determine if the program divisions and offices, Accounting Office, and the Office of Grant
                  Management (OGM) have specific policies and procedures concerning grant monitoring, and the
                  extent of compliance with those polices and procedures.

               3. Determine the factors used to select awards for monitoring (risk-based, award size, new
                  grantee to NEH, etc.). Also, to determine how grant program officials or grant administrators
                  assess the effectiveness and/or adequacy of monitoring activities.

      Our inspection was conducted in accordance with the Quality Standards for Inspections, as issued by the
      President’s Council on Integrity and Efficiency/Executive Council on Integrity and Efficiency.

      We determined that the agency-wide policy for grant administration is documented in the NEH Grant Admin-
      istration Manual (GAM), which outlines the monitoring responsibilities of program, Accounting, and Office
      of Grant Management staff. According to the GAM, the main tool for monitoring grants is the review of
      interim and final reports submitted by grantees. Our inspection concluded that grant monitoring responsibili-
      ties, as outlined in the GAM, are generally being executed.

      We also determined that NEH management does not routinely employ formal risk assessment procedures to
      identify which grant recipients/awards should be subject to focused oversight/monitoring activities; and there
      is no formal mechanism to assess the effectiveness or adequacy of monitoring activities.

      We noted opportunities wherein grant monitoring activities would be enhanced relative to: 1) training and
      guidance for staff directly responsible for monitoring grants; 2) the delinquent report follow-up process; and
      3) program staff access to grant financial information.

      NEH management has implemented procedures to address most of our recommendations.




NEH OIG Semiannual Report                                    5                                            September 30, 2011
                                  AUDIT AND REVIEW ACTIVITIES

                                           EXTERNAL AUDITS/REVIEWS

                                  Limited Audit — Medieval Academy of America
                                                 Cambridge, MA
                                       September 30, 2011; OIG-11-03 (EA)

We performed a limited audit of records maintained by the Medieval Academy of America (the “Academy”) related
to NEH grants FS-50176-08 and RQ-50325-08. The principal objectives of our limited audit were to determine if (1)
grant expenditures were made in accordance with applicable provisions of the NEH’s General Terms and Conditions
for Awards to Organizations and the terms of the approved grant awards; and 2) proper controls over the use of the
Federal funds exist in accordance with minimum standards prescribed in OMB Circulars A-110 and A-122. Our
limited audit was conducted in accordance with Generally Accepted Government Auditing Standards (GAGAS).

We concluded that the Academy needs to strengthen its policies and procedures and implement corrective actions to
improve its management of Federal funds. Specifically, we found that the Academy did not:

         •    Maintain required personnel activity reports;
         •    Develop or implement written procurement procedures, as required by the applicable Federal circulars;
         •    Have adequate internal controls in place.

We questioned expenditures totaling $33,294 [$27,975 is related to personnel costs, (the grantee used budget esti-
mates to calculate these costs); and $5,319 is due to the improper application of the organization’s approved indirect
cost rate].

The grantee essentially concurred with our findings and has initiated efforts to implement corrective action. In
response to our finding concerning personnel costs, the grantee reconstructed effort allocations to substantiate salary
charges to the two NEH grants, based on information ascertained through staff interviews and review of project files.
A final decision concerning allowability of the personnel charges will be made by NEH management.


                                PRE-AWARD ACCOUNTING SYSTEM SURVEYS

                                          Cahokia Mounds Museum Society
                                                   Collinsville, IL
                                           July 19, 2011; OIG-11-01 (TS)

We conducted a pre-award accounting system survey of the Cahokia Mounds Museum Society (the “Society”). The
objective of this survey was to obtain information to determine the adequacy of the organization’s accounting system,
management controls, and policies and procedures designed to administer NEH grant funds. We concluded that the
Society’s accounting system, management controls, Governance oversight, and formalized policies/procedures will
allow the organization to sufficiently manage and account for NEH grant funds. However, we identified several spe-
cific areas, in which existing financial management controls can be improved. We also identified an error within the
NEH-approved budget and a potential procurement compliance deficiency, and advised NEH management to ensure
that the matters are resolved prior to the release of Federal funds to the grantee.




NEH OIG Semiannual Report                                    6                                           September 30, 2011
                                   AUDIT AND REVIEW ACTIVITIES


                              PRE-AWARD ACCOUNTING SYSTEM SURVEYS (con’t.)

                                       Cahokia Mounds Museum Society (con’t.)
                                                   Collinsville, IL
                                           July 19, 2011; OIG-11-01 (TS)

 We noted the following conditions that should be monitored on an ongoing basis to ensure proper implementation.

          •    The organization’s accounting system must provide accurate, current, and complete disclosure of all finan-
               cial transactions related to each federally-sponsored project, which includes the value of contributions
               made by third parties in accomplishing the objectives of the NEH award during the project period. Unal-
               lowable expenditures must be separately tracked in the general ledger and excluded from charges to the
               NEH award.

          •    Procurement procedures, consistent with the minimum requirements of OMB Circular A-110, should be
               established and documented in writing.


 We obtained written assurances from the principals of the organization that they will abide by the terms of the NEH
 award.



                                                   Internet Archive
                                                  San Francisco, CA
                                           September 6, 2011; OIG-11-02 (TS)

 We conducted a pre-award accounting system survey of Internet Archive. The objective of this survey was to obtain
 information to determine the adequacy of the organization’s accounting system, management controls, and policies and
 procedures designed to administer NEH grant funds. We concluded that the accounting system, management controls,
 and administrative policies and procedures, as implemented by Internet Archive, provide assurance that the organiza-
 tion will be able to sufficiently manage and account for NEH grant funds. However, we noted the following condition
 that should be monitored on an ongoing basis to ensure proper implementation.

          •    The organization’s accounting system must provide accurate, current, and complete disclosure of all finan-
               cial transactions related to each federally-sponsored project, which includes the value of contributions
               made by third parties in accomplishing the objectives of the NEH award during the project period. Unal-
               lowable expenditures must be separately tracked in the general ledger and excluded from charges to the
               NEH award.

 We obtained written assurances from the principals of the organization that they will abide by the terms of the NEH
 award.




NEH OIG Semiannual Report                                    7                                           September 30, 2011
                                   AUDIT AND REVIEW ACTIVITIES

                              PRE-AWARD ACCOUNTING SYSTEM SURVEYS (con’t.)

                                          Endangered Language Alliance, Inc.
                                                   New York, NY
                                          September 30, 2011; OIG-11-03 (TS)

 We conducted a pre-award accounting system survey of the Endangered Language Alliance (the “Alliance”). The
 objective of this survey was to obtain information to determine the adequacy of the organization’s accounting system,
 management controls, and policies and procedures designed to administer NEH grant funds. We concluded that the
 accounting system, management controls, Governance oversight, and formalized policies/procedures will allow the
 organization to sufficiently manage and account for NEH grant funds. However, we identified several specific areas, in
 which existing financial management controls can be improved. We also identified a potential cash flow issue that war-
 rants further scrutiny and continuous monitoring by NEH management. We determined that the following conditions
 should also be monitored on an ongoing basis to ensure proper implementation.

          •    The organization’s accounting system must provide accurate, current, and complete disclosure of all finan-
               cial transactions related to each federally-sponsored project, which includes the value of contributions
               made by third parties in accomplishing the objectives of the NEH award during the project period. Unal-
               lowable expenditures must be separately tracked in the general ledger and excluded from charges to the
               NEH award.

          •   Charges to awards for salaries and wages, whether treated as direct or indirect costs, must be based on doc-
              umented payrolls approved by a responsible official of the organization. The distribution of salaries and
              wages to the NEH award must be supported by personnel activity reports, as required by OMB Circular
              A-122.

          •    Procurement procedures, consistent with the minimum requirements of OMB Circular A-110, should be
               established and documented in writing.

          •    As the sponsor of an NEH-supported media project, the Alliance must ensure proper procedures are imple-
               mented to oversee the primary subrecipient, as stipulated in NEH’s Requirements for Grant Recipients that
               Serve as Sponsors of Projects.

          •    Arrangements with consultants must be documented in writing.

          •    The Alliance must undergo a Single or program-specific audit in accordance with the requirements of OMB
               Circular A-133, if Federal expenditures during the organization’s fiscal year exceed $500,000.

          •   Financial records, supporting documentation, statistical records, and all other records pertinent to the NEH
              award must be retained by the Alliance for three years from the date of submission of the final Federal
              Financial Report.


 We obtained written assurances from the principals of the organization that they will abide by the terms of the NEH
 award.




NEH OIG Semiannual Report                                    8                                            September 30, 2011
                                  AUDIT AND REVIEW ACTIVITIES

                                                     DESK REVIEWS

   OMB Circular A-133 establishes audit requirements for state and local governments, colleges and universities, and
   non-profit organizations receiving Federal awards. Covered entities, as defined by the Circular, that expend $500,000
   or more a year in Federal awards must obtain an annual organization-wide audit that includes the entity’s financial
   statements and compliance with Federal award requirements. The audits are conducted by non-Federal auditors, such
   as public accounting firms and state auditors.

   During the reporting period, we issued seven (7) letters communicating the results of our desk reviews of OMB Cir-
   cular A-133 audit reports. The objectives of the desk reviews were to: (1) determine whether the audit reports are
   acceptable under the reporting requirements of OMB Circular A-133; (2) identify any quality issues that may warrant
   follow-up work and/or revisions to the audit report; (3) identify audits for potential Quality Control Reviews (QCR)
   of the independent auditors’ workpapers; and (4) identify issues that may require the attention of NEH management.
   We used the Guide for Desk Reviews of OMB Circular A-133 Audit Reports, issued by the Council of Inspectors Gen-
   eral on Integrity and Efficiency (CIGIE) to determine if the reports were in conformance with the core reporting
   requirements stipulated by OMB Circular A-133.

   We determined that two (2) reports were acceptable; four (4) reports were acceptable with deficiencies; and one (1)
   report was technically deficient. The audit report determined to be technically deficient required corrective action and
   resubmission. A recurring deficiency noted during our desk reviews concerned the lack of disclosure of subrecipient
   awards in the Schedule of Expenditures of Federal Awards, as required by OMB Circular A-133.310(b)(5).

   The following desk reviews were in progress as of September 30, 2011:

            ∗    Arkansas Humanities Council (FYE October 31, 2009)
            ∗    Humanities Council of Washington, DC (FYE October 31, 2009)
            ∗    Humanities Washington (FYE December 31, 2009)
            ∗    New York Council for the Humanities (FYE October 31, 2009)
            ∗    Hawaii Council for the Humanities (FYE October 31, 2009)
            ∗    Nevada Humanities (FYE October 31, 2009)



                                            SINGLE AUDIT ACT REVIEWS

   The OIG receives Single Audit reports directly from state and local government auditors and NEH grantees. We also
   receive communications from other Federal agencies regarding Single Audit findings, (primarily the Department of
   Health and Human Services) and we routinely perform queries of the Federal Audit Clearinghouse to determine the
   reporting of Single Audit findings applicable to NEH awards.

   During the reporting period ended September 30, 2011, the OIG referred findings noted in eleven (11) Single Audit
   reports to NEH management for resolution, [OIG-11-02 (CAA) dated July 7, 2011]. The independent, non-Federal
   auditors identified 60 findings at eleven NEH grantees. Many of the findings concerned grantee non-compliance with
   applicable Federal procurement requirements and lack of timeliness when submitting required financial and/or perfor-
   mance reports.




NEH OIG Semiannual Report                                    9                                            September 30, 2011
                                  AUDIT AND REVIEW ACTIVITIES

                                                 WORK IN PROGRESS

    Limited Audit ~ Marquette Historical Society

    The principal objectives of this limited audit are to determine if (1) the gifts certified by the Marquette Histori-
    cal Society under NEH challenge grant CH-50604-09 are eligible to release Federal matching funds; (2) grant
    expenditures are made in accordance with applicable provisions of NEH’s General Terms and Conditions for
    Awards to Organizations and the approved challenge grant budget; and (3) construction work complied with
    Davis-Bacon Act requirements.

    Limited Audit ~ University of California Press Foundation

    The principal objectives of this limited audit are to determine if (1) the gifts certified by the University of Cali-
    fornia Press Foundation under NEH challenge grant CH-50213-06 are eligible to release Federal matching
    funds; (2) grant expenditures are made in accordance with applicable provisions of NEH’s General Terms and
    Conditions for Awards to Organizations and the approved challenge grant budget; and (3) proper controls over
    the use of the endowment funds and the related earnings exist.

    Limited Audit ~ Filmmakers Collaborative

    The objective of this limited audit is to determine if expenditures reported by Filmmakers Collaborative for
    NEH grant TR-50093-09 are accurate and represent allowable and allocable costs in accordance with the provi-
    sions of the approved budget (and subsequent revisions) and applicable OMB circulars.

    Inspection ~ Grant Application In-take Process and Panel Development Process

    For purposes of this inspection, activities of NEH program staff and management from receipt of a grant appli-
    cation to presentation of the application for peer review/evaluation represent the grant application in-take
    process. The objectives of this inspection are to determine: (1) how applications are screened for eligibility and
    completeness, and when this screening takes place; (2) the scope of the review of draft proposals by NEH
    program staff and the criteria used during the review; (3) the extent of conformity to established guidance per-
    taining to the review of draft proposals; (4) the extent that program officials use agency guidance, NEH Princi-
    ples and Considerations for Recruiting Panelists, when a panel is put together; and (5) the existence of any
    division/office-specific guidance on panel recruitment and/or composition, and the extent of its use.

    Inspection ~ Cost-Sharing Related to NEH General Operating Support Grants

    The principal objectives of this inspection are to (1) evaluate procedures used by NEH management to review
    the validity and allowability of the cost-share amounts reported by recipients of general operating support
    grants; (2) identify the underlying components of the total cost-share reported by recipients and determine if the
    regrantee cost-share amount represents a material portion of the total; (3) obtain supporting schedules that sub-
    stantiate the total regrantee cost-share amount claimed by recipients; and (4) evaluate impact to recipients if a
    regrantee cost-share restriction is enforced.

    FY 2011 Federal Information Security Management Act (FISMA) Evaluation

    Each year, the OIG conducts an independent evaluation of the information security program maintained by the
    NEH, pursuant to the requirements of the Federal Information Security Management Act.



NEH OIG Semiannual Report                                      10                                            September 30, 2011
                                   INVESTIGATIVE ACTIVITIES

                                                  BACKGROUND
  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible vio-
  lations of criminal or civil laws, administrative regulations, and agency policies, which impact the programs and
  operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means of
  receiving allegations or complaints from employees, grantees, contractors, and the general public. We have
  obtained assistance from other OIGs, the Federal Bureau of Investigation (FBI), the Postal Inspection Service,
  and other investigative entities in the past.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determi-
  nation of the appropriate action to take. The decision could result in the initiation of an audit or an investiga-
  tion; a referral to another NEH office/division or another Federal agency; or no further action. When we deter-
  mine that a case involves a crime, we will ask the Federal Bureau of Investigations (FBI), another Federal
  Inspector General, or the United States Department of Justice for assistance.

  During the past several years, the OIG has frequently received Hotline contacts and did not have sufficient
  resources to complete the inquiry or investigation in a timely manner. Therefore, to remedy this problem, we
  have been inquiring of other OIGs concerning their willingness and ability to assist us on an “as needed” basis
  under a reimbursable agreement. Several OIGs responded they would consider performing work for us on a
  case-by-case basis, depending on the availability of their staff. However, this assistance would be for criminal
  cases only and we have no guarantee that the OIGs would have staff available when needed.

                                             OPEN AT APRIL 1, 2011

  Two matters were open as of April 1, 2011. One matter involved grant funds fraudulently diverted from the NEH
  and we were working with an Assistant United States Attorney and a Department of Justice Special Agent. We
  closed this case upon receipt of a determination letter from the FBI that the NEH would recover funds seized by
  the FBI in the amount of $25,622, which represents a portion of the funds fraudulently diverted. The other matter
  concerns an NEH employee and remains open as of the end of this reporting period.

                CONTACTS DURING THE SIX-MONTH PERIOD ENDED SEPTEMBER 30, 2011

  We received thirteen (13) contacts during the current reporting period.

  One contact concerned the legitimacy of information presented in a grant application recently submitted to the
  NEH. The application was properly subjected to the NEH peer review process; however it was not recommended
  for funding. This matter is considered closed by the OIG.

  Three contacts were complaints alleging the retention of a portion of participant stipends by a host organization
  (NEH grantee) for inappropriate purposes. The participant stipends were funded by an NEH summer seminar
  award. This matter has been referred to the OIG audit operations.

  One contact was initiated by NEH management upon becoming aware of a publicly-reported financial irregularity
  involving an NEH grantee. By the time the OIG was notified, the local authority and other Federal investigative
  and prosecutive entities were actively involved with the matter. The OIG has been advised by the Federal agent
  in charge of the investigation that the financial irregularity did not directly impact NEH awards. This matter has
  been closed.

  One contact was a FOIA matter, which was referred to the NEH Office of General Counsel.

  Seven contacts concerned matters that lacked sufficient attributes of criminal or administrative violations impact-
  ing the programs and operations of the NEH.

NEH OIG Semiannual Report                                   11                                          September 30, 2011
                                        INVESTIGATIVE ACTIVITIES

                                         OPEN AT SEPTEMBER 30, 2011

       One matter is open as of September 30, 2011.


                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

       No matters were referred to the U.S. Department of Justice during this period.

                                     HOTLINE AND PREVENTION ACTIVITIES

      We maintain a toll-free Hotline number, an agency e-mail address, and an internet address to provide
      additional confidentiality for individuals bringing matters to the attention of the OIG. We periodically
      issue agency-wide e-mail messages informing NEH staff of violations that are reportable to the OIG.
      We also send e-mail messages several times during the year to inform NEH staff about the OIG opera-
      tions. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.

      An OIG staff person also makes a brief presentation during meetings convened by NEH program man-
      agement involving project directors of new awardees. The presentations include an overview of OIG
      operations and emphasize the importance of the recipients’ efforts to understand the administrative
      requirements and specific terms and conditions applicable to their respective awards.

                                       SUMMARY OF INVESTIGATION ACTIVITY


                                          Open at beginning of period              2



                                       Matters brought to the OIG during
                                              the reporting period                13



                                           Total investigative contacts           15

                                         Closed, referred, or no action           14
                                         deemed necessary during the
                                               reporting period

                                             Open at end of period                 1




NEH OIG Semiannual Report                                   12                                          September 30, 2011
                                              OTHER ACTIVITIES

                                 REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the economy
and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and detect
fraud and abuse. During this period, no legislative reviews were required for the NEH.

                                         WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside consult-
ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
staff), and policy-group meetings. OIG staff may contribute to the discussions, but the OIG does not participate in pol-
icymaking.

The Deputy IG made a presentation about the mission, responsibilities, and activities of the NEH Office of Inspector
General and the OIG Hotline during a meeting held at the NEH involving project directors in receipt of awards through
the Office of Digital Humanities. An OIG auditor also moderated a session during an orientation meeting convened by
the NEH Federal/State Partnership staff for new Executive Directors of state humanities councils wherein topics such
as the mission/responsibilities of the OIG, the OIG Hotline, implementation of effective internal controls, and other
accountability expectations were discussed.

During the summer, NEH management conducted an exercise to test recent updates to the agency’s continuity of oper-
ations plan (COOP). An OIG auditor participated in the exercise as an independent observer and utilized a Continuity
Evaluation Tool to facilitate an extensive evaluation of the exercise, which was submitted to NEH management. The
Continuity Evaluation Tool was provided to the OIG by NEH management prior to the exercise.


                        PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL
                                    ON INTEGRITY AND EFFICIENCY

The Inspector General Reform Act of 2008 (Public Law 110-409), amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all
Inspectors General whose offices are established by the Inspector General Act of 1978 (and subsequent amendments)
— those that are Presidentially-appointed/Senate-confirmed and those that are appointed by agency heads (Designated
Federal Entities). During the six-month period ending September 30, 2011, the Deputy IG regularly attended monthly
CIGIE meetings (and provided input, as requested), bi-monthly meetings of the Federal Audit Executive Council
(FAEC), monthly meetings of the Financial Statement Audit Network (a subcommittee of the FAEC), and the inaugu-
ral meeting of a recently established sub-group of the CIGIE representing the “Smaller OIGs”. The Deputy IG also
attended the annual CIGIE conference in May 2011. A staff auditor attended the Single Audit Roundtable held in the
Spring.


                                      INTRA-GOVERNMENTAL ACTIVITY

Collaboration with the National Science Foundation ~ Office of Inspector General

OIG staff is participating in a joint investigative effort concerning a major media grantee. The joint effort involves IG
staff from three (3) Federal agencies. NSF ~ OIG is leading the investigation.




NEH OIG Semiannual Report                                   13                                           September 30, 2011
                                                      OTHER ACTIVITIES

                                                OIG INTERNET AND INTRANET

  The OIG has posted several audit/review reports and semiannual reports on the internet and on the NEH intranet.
  The reports are accessible through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/
  OIG.html).

  To advance NEH staff awareness and understanding of the OIG mission and responsibilities, we provide hyper-
  links to several other Federal agencies such as the Office of Management and Budget, the Government Accounta-
  bility Office, the Office of Government Ethics, and the IGNET website.

                                                    TECHNICAL ASSISTANCE

  Throughout the reporting period, OIG staff provided technical help to NEH staff, grantees, and independent public
  accountants about various matters. We are generally consulted about matters related to the implementation of the
  audit requirements of OMB Circular A-133.


                                      “AUDIT READINESS” AWARENESS CAMPAIGN

  The OIG executes an “Audit Readiness” awareness campaign via e-mail. The objective of the campaign is to distrib-
  ute guidance that would assist recipients of NEH grants in their efforts to preclude unfavorable outcomes should the
  organizations’ NEH grants be selected for audit. The e-mail communication emphasizes the importance of the each
  recipient’s review of and adherence to the specific NEH grant terms and conditions and the administrative require-
  ments applicable to all Federal awards. We remind recipients that they are stewards of Federal funds and therefore
  must comply with the OMB circulars and the terms and conditions of their grant awards. Highlighted in the commu-
  nications are specific areas wherein problems are commonly found during audits of NEH grantees and hyperlinks to
  appropriate guidance materials and resources. We also mention the importance of effective internal controls. The
  e-mail communications are sent directly to project directors and grant administrators identified for all non-profit
  awardees.

  During the reporting period ending September 30, 2011, e-mail communications were sent as noted below. We have
  reasonable assurance that all of the awardees received a copy of the communication.
                   NEH Office or Division                  Number of Awardees                Number of E-Mails Sent*
              Division of Public Programs                               44                                    69
              Division of Preservation and
              Access                                                   109                                   175
              Office of Challenge Grants                                23                                    41
              Office of Digital Humanities                              4                                      7
              Division of Education Programs                            5                                     10
              Division of Research Programs                             5                                      8


           *There were several instances where either the project director and the grant administrator were the same or we did not
            have any contact information for an individual.




NEH OIG Semiannual Report                                             14                                                     September 30, 2011
                                                       TABLE I

                                  REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
       semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


       IG Act Reference                           Reporting Requirements                                  Page

       Section 4(a)(2)            Regulatory and Legislative Reviews………………………………                           13

       Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies………………..…                  .*

       Section 5(a)(2)            Recommendations for Corrective Action …………………………                         .*

       Section 5(a)(3)            Prior Significant Recommendations Unimplemented…………..…                    *

       Section 5(a)(4)            Matters Referred to Prosecutive Authorities………………………                      12

       Section 5(a)(5)            Instances Where Information Was Refused or Not Provided……..              *

       Section 5(a)(6)            List of Reports Issued………..…………………………………….                              3-4

       Section 5(a)(7)            Summary of Reports Issued.……………………………………….                              5-10

       Section 5(a)(8)            Audit Reports - Questioned Costs….………………………………                           16

       Section 5(a)(9)            Audit Report - Funds To Be Put to Better Use.…….……………...                 16

       Section 5(a)(10)           Prior Audit Reports Unresolved……………………………………                              *

       Section 5(a)(11)           Significant Revised Management Decisions……………………….                        *

       Section 5(a)(12)           Significant Management Decisions with which OIG Disagreed…..              *

       Section 5(a)(14-16)        Peer Review Results………………………………………………. Appendix A


        * None this period




NEH OIG Semiannual Report                                        15                                             September 30, 2011
                                                        TABLE II
                                           INSPECTOR GENERAL-ISSUED REPORTS
                                                 WITH QUESTIONED COSTS


                                                                                          Number     Questioned   Unsupported
                                                                                        Of Reports    Cost          Cost
         A. For which no management decision has been made by the                          -1-        $491,667       $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                                 -1-        $ 33,294       $-0-

                                     Subtotals (A+B)                                       -2-        $524,961       $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                                   -1-       $125,000*      $ -0-

                  ii.   Dollar value of costs not disallowed                                -0-       $366,667*      $ -0-


                  iii. Dollar value of costs not disallowed based on the                    -0-       $ -0-          $ -0-
                       “Value of Services Received.”

         D. For which no management decision has been made by the                           -1-       $ 33,294       $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within                        -0-       $   -0-        $ -0-
            six months of issuance.

           * This matter was resolved via a Settlement Agreement executed by the
             U.S. Department of Justice. The difference between the amount stipulated
             in the Settlement Agreement and the total questioned in the OIG report
             is reflected in Table II as “Dollar value of costs not disallowed”.

                                                    TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                                             Number       Dollar
                                                                                                             Of Reports   Value


         A. For which no management decision has been made by the commencement                                    -0-     $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                                        -0-     $-0-

         C. For which a management decision was made during the reporting period.                                 -0-     $-0-

                  i. Dollar value of recommendations that were agreed to by management.                                   $-0-

                  ii. Dollar value of recommendations that were not agreed to by                                          $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.                         -0-     $-0-




NEH OIG Semiannual Report                                            16                                              September 30, 2011
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation; or
        because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  17                                       September 30, 2011
                                                                                        APPENDIX A

                                               PEER REVIEW RESULTS


       The following information is provided pursuant to the requirements of Section 989C of Public Law 111-203
       (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer Protection Act, amending the Inspector
       General Act of 1978 (the IG Act), 5 U.S.C. App. This appendix complies with Section 5(a)(14 - 16) of the IG
       Act of 1978, as amended.


       (14)(A) Peer Review of the Audit Function. On December 9, 2010, the U.S. Consumer Product Safety
       Commission (CPSC) issued a System Review Report on the audit organization of the NEH OIG in effect for
       the year ended March 31, 2010. The CPSC found that the system of quality control for the audit organization
       of the NEH OIG had been suitably designed and complied with to provide reasonable assurance of performing
       and reporting in conformity with applicable professional standards in all material respects. Federal audit
       organizations can receive a rating of pass, pass with deficiencies, or fail. The NEH OIG received a peer review
       rating of pass.

       ( 15 ) Outstanding Recommendations from any Peer Review of the NEH OIG. There are no outstanding
       recommendations from any peer review of the NEH OIG conducted by another Office of Inspector General
       that have not been fully implemented.

       ( 16 ) Peer Review Conducted by the NEH OIG. On January 27, 2011, the NEH OIG issued a System
       Review Report on the United States Capitol Police (USCP) Office of Inspector General audit organization in
       effect for the year ended September 30, 2010. We found that the system of quality control for the audit organi-
       zation of the USCP OIG had been suitably designed and complied with to provide USCP OIG with reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material
       respects. The USCP OIG received a peer review rating of pass.




NEH OIG Semiannual Report                                                                               September 30, 2011
